In THE

Supreme Court of the Anited States

CITY OF CLEVELAND, KAREN LAMENDOLA, ADMINISTRATOR FOR
ESTATE OF FRANK STOIKER, AND J. REID YODER, ADMINISTRATOR FOR
ESTATES OF EUGENE TERPAY, JAMES T. FARMER, JOHN STAIMPEL,

Petitioners,
Vv.

RICKY JACKSON, KWAME AJAMU, FKA RONNIE BRIDGEMAN,
AND WILEY EDWARD BRIDGEMAN,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

CERTIFICATE OF SERVICE
Thereby certify that on this 25th day of September, 2019, I caused three copies of
the Petition for a Writ of Certiorari and the Appendix to the Petition for a Writ of
Certiorari to be served on the counsel of record as follows:

By overnight delivery and email to:

Terry H. Gilbert Elizabeth Wang
Jacqueline C. Greene LoEvy & LoEvy LLP
FRIEDMAN & GILBERT 2060 Broadway, Suite 460
55 Public Square, Suite 1055 Boulder, CO 80302
Cleveland, OH 44113 (720) 328-5642

(216) 241-1430 elizabethw@loevy.com
tgilbert@f-glaw.com

jgreene@f-glaw.com Counsel for Ricky Jackson

David E. Mills

THE MILLS Law OFFICE LLC
1300 W. Ninth St., Suite 636
Cleveland, OH 44113

(216) 929-4747
dm@MillsFederalAppeals.com

Counsel for Kwame Ajamu
and Wiley Bridgeman

I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on September 25, 2019.

 

The Watergate, Stiite 660

600 New Hampshire Ave., N.W.
Washington, D.C. 20037

(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
